<html>
<title> - RWANDA: DEMOCRACY THWARTED</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                       RWANDA: DEMOCRACY THWARTED

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 27, 2017

                               __________

                           Serial No. 115-70

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-012 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                     
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Donald Yamamoto, Acting Assistant Secretary, Bureau 
  of African Affairs, U.S. Department of State...................     4
Mr. David Himbara, coordinator for Canada, Democracy in Rwanda 
  Now............................................................    19
Major Robert Higiro, Rwanda Defense Force, Retired, coordinator 
  for the United States, Democracy in Rwanda Now.................    26
Mr. Mike Jobbins, manager, Africa Programs, Search for Common 
  Ground.........................................................    31
Mr. Adotei Akwei, managing director, Government Relations, 
  Amnesty International United States............................    41

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald Yamamoto: Prepared statement................     8
Mr. David Himbara: Prepared statement............................    23
Major Robert Higiro: Prepared statement..........................    28
Mr. Mike Jobbins: Prepared statement.............................    35
Mr. Adotei Akwei: Prepared statement.............................    44

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
Questions submitted for the record by the Honorable Christopher 
  H. Smith, a Representative in Congress from the State of New 
  Jersey, and chairman, Subcommittee on Africa, Global Health, 
  Global Human Rights, and International Organizations, and 
  written responses from:
  The Honorable Donald Yamamoto..................................    62
  Mr. David Himbara..............................................    66
  Major Robert Higiro............................................    67
  Mr. Mike Jobbins...............................................    68
  Mr. Adotei Akwei...............................................    71


                       RWANDA: DEMOCRACY THWARTED

                              ----------                              


                     WEDNESDAY, SEPTEMBER 27, 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3:00 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and good 
afternoon to everybody.
    Rwanda is an important African ally. We know it. They have 
been for a very long time. This East African nation has been a 
valuable contributor to peacekeeping in Africa and is the sixth 
largest troop and police contributor to U.N. missions.
    However, reports have increased about the status of human 
rights and rule of law inside Rwanda and its efforts to silence 
critics living abroad.
    This hearing will continue to examine the future of 
democracy and the rule of law in Rwanda in light of persistent 
criticism of its government's behavior at home and on the 
international stage.
    Rwanda is a constitutional republic dominated by a very 
strong presidency. In 2015, the country held a constitutional 
referendum in which an estimated 98 percent of registered 
voters participated.
    Approximately 98 percent of those who voted endorsed a set 
of amendments that included provisions that would allow the 
President to run for up to three additional terms in office, 
meaning Paul Kagame could be President for more than 20 more 
years.
    His election to a third term in August 2017 was achieved 
with 99 percent of the vote. A popular politician in the United 
States and most other countries would be unlikely in most 
circumstances to win nearly 100 percent of the vote in a free, 
fair, and competitive election.
    Consequently, it is difficult to believe that even someone 
as widely admired as President Kagame could have been that 
popular.
    Such suspicion is stoked by reports of vote irregularities 
and actions by the Rwandan Government to restrain opposition 
activism and enact stringent controls on opposition activism 
including legal restrictions on civil liberties and stringent 
controls on the free flow of information.
    An example of why there is skepticism about the nature of 
free elections in Rwanda is the case of businesswoman Diane 
Rwigara, who ran as a critic of Kagame.
    Days after she launched her campaign, nude photos allegedly 
of her were leaked onto the internet in an attempt to discredit 
her. She said she would not be intimidated and continued her 
campaign.
    On July 7th, the National Electoral Commission disqualified 
her and two other candidates on technical grounds, alleging 
they had not collected enough valid signatures.
    Amnesty International said that the election would be held 
in a climate of fear and repression, and the Commission's 
decision was criticized by the U.S. State Department as well as 
the European Union.
    Following the election, Rwigara launched an activist group 
called the People's Salvation movement to challenge the regime 
on its human rights record, saying that the country's 
Parliament is little more than a rubber stamp.
    Within days, her home was raided and she was arrested for 
forgery and tax evasion. Within days, although she was 
released, Rwigara was rearrested for forgery and offenses 
against state security. Her mothers and her sisters were also 
subsequently arrested for tax evasion.
    This is not the only case of harsh punishment of those who 
criticise the Kagame government. David Himbara, one of our 
witnesses today, was a close advisor to President Kagame and 
has an inside view of how this government deals with those seen 
as failing the government or those who disagree with it.
    He testified on the inner workings of the Kagame government 
at our May 20, 2015 hearing on Rwanda. Another witness at that 
May 2015 hearing was Robert Higiro, who told a chilling account 
of being solicited to commit murders of two formerly high-
ranking military and security officials.
    That account was backed by authenticated recordings of 
Rwanda's security chief offering large sums of money for the 
murders. In fact, after Mr. Higiro testified about his offer, 
he had to move from Belgium to the United States because his 
life was in danger.
    Both of our Rwandan witnesses have new information today 
that will be important for our Government's policy toward 
Rwanda.
    During a staff delegation to South Africa last year, two of 
my staff spoke with officials of the Government of South 
Africa, which was highly offended that the Rwandan Government 
would be involved in the murder of a dissident on New Year's 
Eve 2013.
    My staff also spoke with Rwandan refugees in South Africa 
who reported being afraid of officials at the Rwandan Embassy 
in South Africa who said they had threatened them for seeking 
asylum.
    Again, Rwanda is not your typical dictatorship in which all 
people suffer under an unpopular leader who does not provide 
for social services or security.
    Many Rwandans apparently generally feel the government is 
acting in their interests, especially providing for interethnic 
harmony.
    It is this anomaly that we seek to better understand in 
part through this hearing today. My office has compiled a 
report on our Government's human rights issues with Rwanda and 
we are due to discuss these matters with them further.
    We would be a poor ally if we did not caution the Rwandan 
Government about human rights abuses which the international 
community cites.
    And so I would just conclude, in reading over all the 
testimony I just thought there were a number of important 
points made by all of our witnesses. But Amnesty International, 
I think, really brought home the fact that numerous journalists 
have been imprisoned. The Rwandan Government continues to 
suppress the independence and freedom of the media. This is 
from their testimony for today.
    They also point out that the international community 
including the Clinton, the Bush, and the Obama administrations 
have been at best half-hearted in confronting President Kagame 
and pressing the Rwandan Government to reform its policy 
regarding human rights and political space.
    I would like to now yield to my friend and colleague, Karen 
Bass.
    Ms. Bass. Thank you, Mr. Chair.
    As always, thank you for your leadership in holding today's 
hearing on developments in Rwanda, especially regarding 
examining democratic practices.
    While Rwanda is geographically a small nation, its 
condition and role in the stability of the Great Lakes region 
is critical.
    I also want to thank our distinguished witnesses today 
including the Honorable Donald Yamamoto. We are happy you're 
here representing the State Department. I do hope you won't be 
acting forever.
    Several members of the Rwanda diaspora and the 
international human rights community--I look forward to hearing 
your various perspectives on both the successes and challenges 
of democracy in Rwanda.
    Chairman Smith, I believe, very clearly laid out many of 
the challenges and while I know that there are many challenges 
across Africa and while it is very important to address the 
challenges and concerns it is also important to talk about 
where there have been some positive developments, especially 
given Rwanda's history.
    Rwanda experienced a very dark time in '94 when over 
800,000 people lost their lives. The aftermath of the '94 
genocide left the physical infrastructure and political 
institutions destroyed.
    The country lost skilled human resources and was left with 
a dilapidated economy. Since that time, Rwanda has exhibited a 
rare degree of internal stability and economic growth in a sub 
region marked by armed conflict and violent transfers of power.
    Over the last 23 years, Rwanda has sought to change the 
course of the nation and embarked on an active effort to 
improve citizens' health, boost agricultural output, promote 
investment, and increase women's participation.
    I do have to note that Rwanda is a world leader in women's 
representation with over 64 percent of Parliament being women, 
and that is compared to the United States, which is 18 percent.
    Additionally, Rwanda has experienced an average of 7.6 
percent growth per year over the last decade and this is in 
part due to the pro investor policies, and Rwanda scores very 
well on the World Bank's Doing Business Report, ranking 56 out 
of 190 economies assessed in 2017 and number two in sub-Saharan 
Africa.
    According to the WHO, the World Health Organization, 
between 1990 and 2016 life expectancy increased from 48 to 66 
years. The mortality rate of children fell from 152 to 42 
deaths per 1,000 live births and the maternal mortality rate 
decreased from 1,300 deaths to 290 per 100,000. Literacy levels 
in the country for both men and women are at nearly 70 percent.
    Rwanda also plays a major role in peacekeeping across 
Africa and Rwandan troops participate in multiple U.N. and 
African Union missions.
    Rwanda's peacekeepers are reportedly particularly valued 
because of their training and discipline. So the country has 
come a long way.
    In spite of the progress, though, there has been a great 
deal of concern over Rwanda's history of unilateral 
intervention in the sub region and about restrictive political 
environment.
    Rwanda has the potential to be a strong regional leader but 
to do this, like all countries, it must continue to address its 
internal challenges.
    For the country's own success, it should create a space for 
freedom of expression, ensure the free flow of information in 
the country and seek A.U. or U.N. authorization or mediation 
when dealing with neighboring countries.
    I yield back my time, Mr. Chair.
    Mr. Smith. I would like to now welcome back to the 
subcommittee the very distinguished Donald Y. Yamamoto, who is 
serving as the acting Assistant Secretary of State in the 
Bureau of African Affairs at the U.S. Department of State.
    He has served as the Principal Deputy Assistant Secretary 
of State in the Bureau of African Affairs from 2003 to 2006. He 
was responsible for coordinating U.S. policy toward more than 
20 countries in East and Central Africa.
    He served as U.S. Ambassador to Ethiopia from 2006 to 2009 
and U.S. Ambassador to the Republic of Djibouti from 2000 to 
2003, and he has testified many, many times before this 
committee and he is more than welcome.
    Mr. Ambassador, please proceed as you would like.

 STATEMENT OF THE HONORABLE DONALD YAMAMOTO, ACTING ASSISTANT 
 SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Yamamoto. Thank you very much. I submit the longer form 
for the record.
    Mr. Smith. Sure. Without objection, so ordered.
    Mr. Yamamoto. Mr. Chairman and Ranking Member Bass, thank 
you for the invitation today.
    Since the United States has a very close and complex 
relationship with Rwanda, since rebuilding the country in 1994 
genocide, over the last 23 years Rwanda has made remarkable 
gains in recovering from this tragedy.
    At the same time, Rwanda's record in the areas of human 
rights and democracy, while improved in some areas, remains a 
concern.
    U.S. policy toward Rwanda seeks to support those areas 
where the government continues to make progress and urges the 
government to effect change where it needs to do more, 
especially in the expanding space of political dialogue and 
competition to take steps toward democratic transition of 
power.
    Since the genocide, Rwanda's progress in the fields of 
health and development have been dramatic and we have been 
proud to partner in this process.
    Over the last decade, child mortality has been reduced by 
two-thirds. Life expectancy has risen to 64\1/2\ years of age 
by 2016.
    HIV prevalence has dropped from a little under 5 percent to 
3 percent in the same period, and with support for the 
President's Emergency Plan for AIDS and Relief, PEPFAR, the 
Government of Rwanda has reduced HIV transmission to newborns 
to just 2 percent.
    Likewise, the economic growth and opportunity have been 
important aspects of our partnership with Rwanda over the 
past--over the past 20 years.
    In the last two decades, Rwanda's economic growth has 
averaged about 7 to 8 percent, making it one of the leading 
countries, according to the World Bank.
    Rwanda is a major contributor to regional peace and 
security. It is now the fifth largest contributor to 
peacekeeping operations, and of course third in police 
operations. Rwandan troops are regionally respected and 
disciplined and participate in peacekeeping operations.
    In South Sudan, Rwanda recently deployed additional 
peacekeeping troops as part of the U.N.'s Regional Protection 
Force and Rwanda is a priority partner in reforming the African 
Union so that it is better prepared to resolve regional 
conflicts. And President Kagame will take over the rotating 
chairmanship of the African Union in January 2018.
    Despite these positive areas, we continue to have 
concerns--serious concerns about weak democratic institutions, 
freedom of speech, respect for human rights in Rwanda.
    There have been several important developments since the 
subcommittee's last similarly-themed hearing on Rwanda in May 
2015. In December 2015, Rwanda's voters approved a package of 
constitutional amendments including one that enabled President 
Kagame to stay in power beyond the two-term limit contained in 
Rwanda's constitution.
    In the run-up of that decision, we engaged in extensive 
public and private diplomacy, urging the President to honor the 
commitment he made in respect to term limits when he first 
assumed office.
    The constitutional amendments allowed President Kagame, who 
had been in office since 2000, to run for a third term.
    We continue to publically and privately emphasize our 
conviction that constitutional transition of power are 
essential for strong democracies everywhere and the efforts by 
incumbents to change rules to stay in power will weaken 
democratic institutions and undermine long-term stability.
    The August 4th Presidential elections illustrate that 
democracy in Rwanda remains far from perfect. As you know, the 
President was reelected in an official tally of nearly 99 
percent of the vote.
    In the August 5th statement, we said we were disturbed by 
the voting irregularities we had observed and reiterated our 
longstanding concerns over the integrity of the vote-counting 
process.
    Three aspiring candidates were disqualified before the 
election and we expressed concern of the lack of transparency 
in the process.
    We noted in our statement we hoped that these concerns will 
be addressed before the 2018 parliamentary elections. Compared 
to the previous Presidential elections in 2010, however, we 
noted some progress.
    This was the first election in which the Democratic Green 
Party, the main registered opposition party in Rwanda, was 
allowed to participate.
    The Rwandan media has reported on the harassment of some 
opposition candidates and government officials took action to 
address complaints some cases by arresting local officials.
    Since the election, Rwandan officials have targeted several 
political opposition figures for questioning or arrest, and we 
are concerned by, and are following closely, the case of Diane 
Rwigara, one of the three disqualified Presidential aspirants. 
Police raided her home on August 29th, arrested Ms. Rwigara and 
two of her family members on September 23. We understand that 
the Rwandan authorities have until September 28th to press 
charges. In addition, we are following the arrests of at least 
10 officials and members of an unregistered opposition party 
earlier this month. The cases suggest that tight restrictions 
remain on political competition and critics of the ruling 
party.
    Other serious human rights violations have been cited in 
our reports to Congress and include arbitrary and unlawful 
killings, the security forces' disregard for the rule of law, 
restrictions on civil society organizations, government 
interference with the press. Over the years, Rwandans have 
reported to us the disappearance and suspected death of family 
members at the hands of the Rwandan security services. NGOs 
critical of the government are routinely denied registration to 
operate in the country. Government officials have also 
questioned, threatened, and arrested journalists who express 
critical views on sensitive topics. The government has used law 
criminalizing genocide ideology and divisionism along with 
national security provisions to suppress dissent, prosecute 
journalists, and pressure human rights groups to refrain from 
investigating and reporting on the findings.
    The administration continues to take action to address 
these human rights situations in Rwanda. In March 2017, our 
Ambassador in Kigali initiated quarterly high-level dialogues 
with the government on civil society and media freedom.
    USAID supports a number of targeted activities to promote 
the rule of law. Some areas where we continue to work include 
strengthening local NGO capacity to engage in policymaking 
improvements and to laws governing NGOs, increasing the 
capacity and skills of the media to provide independent 
impartial information, and skills training for judges.
    Rwanda benefits from the African Growth and Opportunity Act 
(AGOA) and we have raised concerns to the Rwandan Government 
regarding harassment of political opposition leaders and NGOs 
as well as restrictions on media freedom with the context of 
AGOA eligibility.
    We are responding to Rwanda's request for help to combat 
trafficking in persons, including improving prosecution skills 
and closing gaps, and over the last decade we have worked 
closely with the Rwandan Government, civil society, private 
sector to combat child labor and thanks to our partnership, 
approximately 5,000 children were removed from child labor in 
Rwanda's tea-growing districts between 2015 and 2017 alone.
    I would like to note some good news with respect to human 
rights and governance in Rwanda. The Government of Rwanda holds 
public officials accountable for corrupt practices including 
through prosecution.
    Rwanda has also prioritized the fight against gender-based 
violence and generally respects the rights of LGBTI persons.
    Women leaders are promoted as evidenced by the fact, as the 
Congresswoman stated, that 63 percent of Parliament members and 
40 percent of cabinet officials are female.
    Human rights are part and parcel of our ongoing dialogue at 
all levels of the Rwandan Government and our consistent message 
remains that allowing opposition figures, journalists, and 
civil society to contribute to Rwanda's future is crucial to 
building a knowledge-based economy and government seeks to 
foster.
    This includes ensuring freedom of expression, press 
freedom, ability of citizens to criticize the government and 
ruling party without fear of threats or violence or 
intimidation.
    And with that, I defer to you, Mr. Congressman.
    [The prepared statement of Mr. Yamamoto follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                              ----------                              

    Mr. Smith. Thank you so much, Mr. Ambassador.
    Let me begin by asking, did you, did the department, 
consider the elections to be free, fair, and transparent? You 
note that there is some progress.
    You note that the Democratic Green Party, which got less 
than 1 percent--I presume far less than that in the election--
rather than the other parties that might have had a more robust 
showing on election day, as some progress and you also point 
out that Rwandan media--you don't say whether or not we 
independently verified it--reported on harassment of some 
opposition candidates and that government officials took action 
to address those complaints.
    Is that all true or is it just something that was in the 
local papers? Because you did point out in the next paragraph, 
since the election Rwandan authorities have targeted--what a 
word, targeted--several political opposition figures for 
questioning or arrest.
    So those who weren't happy with the results couldn't 
participate the way they ought to have been able to and now get 
further retaliation after the election. I don't see why that is 
progress.
    Mr. Yamamoto. Thank you, Mr.--thank you, Mr. Chairman.
    So our relationship with Rwanda is one of a mixed 
relationship on the issue of democratic concerns and human 
rights issues.
    But if we look at one issue--area is if the elections were 
completely free, open, fair, and transparent in a U.S. context 
would President Kagame win that election and the answer is he 
has----
    Mr. Smith. I don't think that is the question to ask. I 
think it should be whether or not the process was free, fair, 
and transparent and then let the people decide.
    Mr. Yamamoto. Right. So after the Presidential elections we 
had made a statement saying that we noted irregularities in the 
process and that is an issue that we had raised with the 
government and also looked at ways in which we could work with 
the Government of Rwanda to improve the process in the 
elections.
    Let me also state that one positive point for the electoral 
process since 2010 is that we did have the registration of the 
Democratic Green Party and also the first debate--political 
debate for the presidency.
    Mr. Smith. But his numbers, obviously--President Kagame's--
have gone up to the point where they are almost 100 percent so 
any sense that things are trending toward more openness, 
transparency, would you be able to say here and now that it was 
a free and fair election? Yes or no?
    Mr. Yamamoto. And the answer is more complex and the issue 
is that in our statement that we had stated that we had 
concerns with the process of the elections because of the 
irregularities that we noted and----
    Mr. Smith. Like, what were the irregularities?
    Mr. Yamamoto. The irregularities concerned the process and 
procedures and the issue of having 98.9 percent of the vote, 
that in itself denotes or relates to information of 
irregularities.
    Mr. Smith. And candidates were excluded from participation 
in an arbitrary and capricious manner? Yes?
    Mr. Yamamoto. Yes.
    Mr. Smith. Why can't we just simply say it wasn't free, it 
wasn't fair, wasn't transparent?
    Mr. Yamamoto. That the--because on the overall issues that 
we noted the irregularities and we noticed good points and bad 
points, and so there is a process.
    And what we hope to achieve in our overall relationship 
with Rwanda is that this is a reliable partnership and that we 
want to move it in a forward posture and that is what----
    Mr. Smith. I agree on behalf of the people we should do 
everything we can health wise, and everything to be of 
assistance, even with dictatorships.
    But I don't think we should look askance and not call it 
for what it is. If it is a sham election we ought to call it a 
sham election. You can't say that?
    Mr. Yamamoto. And we agree with you. We agree with you 100 
percent.
    Mr. Smith. That it is a sham election or----
    Mr. Yamamoto. That we look at elections and judge it by the 
standards of a free, fair, transparent election process and 
when there are irregularities we will call it out and that is 
what we did in August.
    Mr. Smith. But at the end of the day, a judgment has to be 
made based on the evidence. But you cannot or will not make the 
decision that it was not free, not fair, and not transparent.
    Mr. Yamamoto. It was not a transparent process. I mean, it 
was not a--irregularities in the process of the election.
    Mr. Smith. At the end of the day, was it free and fair? No? 
Yes?
    Mr. Yamamoto. Again, Mr. Chairman, it becomes a very 
complex process.
    Mr. Smith. Okay. I am not sure why you can't make a 
judgment. It is disappointing.
    Human Rights Watch has documented that poor people--critics 
of government decisions regarding land disputes and suspected 
petty criminals have been arbitrarily arrested, held in illegal 
detention centers, and in some cases executed, forcefully 
disappeared, tortured, and mistreated. These tactics ensure 
that citizens are afraid to speak out against the government,'' 
and they go through what you would call one irregularity after 
another. Again, I don't know why the judgment can't be made 
that this was not a free and fair election.
    Amnesty International points out in their comments quite 
extensively that the Rwandan Government continues to suppress 
the independence and freedom of the media. Numerous journalists 
have been imprisoned, harassed, and even killed while many more 
have fled into exile over the years. Then they give specific 
examples on that.
    These actions mirror previous media crackdowns. Is there a 
media crackdown? Was there before the election, during the 
election, and after the election?
    Mr. Yamamoto. Let me go to your first question, Mr. 
Chairman.
    So first is on the voting and the vote count irregularities 
that we observed on the August 4th Presidential elections. We 
are not able--we are unable to assess this election as free and 
fair so that is our original statement.
    We have communicated our observations and assessment to the 
Rwandan Government. On the issues of human rights abuse during 
the procedures and process of the elections before, during, and 
after, we are concerned with any reports of human rights.
    We have started, through our Ambassador, through our 
Embassy, engaging with the government at all levels on these 
issues and we express our concerns.
    Mr. Smith. And, again, if I could, with all due respect, 
Mr. Ambassador, we have had human rights dialogues in places 
like Vietnam for years.
    They have been a cul-de-sac where people meet, nothing 
happens--a venting of disagreements--and then they are used as 
an excuse for not calling out Vietnam for its egregious abuses 
whether it be as a CPC country or as a violator with regards to 
trafficking.
    The dialogues are important but they can't be a substitute 
for calling it the way it is in a forum like this or anywhere 
else, particularly after the election.
    Ninety-nine percent. One party is given the green light, 
which was destined to lose massively. I don't see that as 
progress when so many others were disqualified.
    So I would take issue with your assessment of some 
progress. I think, if anything, it is regression, given his 
even better outcome that he had in the polls.
    Amnesty International and Human Rights Watch documented 
just how brutal this was.
    As a matter of fact, Amnesty International said in their 
testimony during the 23 years that the Rwandan Patriotic Front 
has ruled the country there has been an unwavering often brutal 
campaign against government critics and human rights defenders.
    This campaign has included a tax on political opposition 
members including arrest, detention, disappearance and 
killings, restrictions on the media, and activities of civil 
society and the creation of a climate of fear.
    And now, as you have testified, since the election Rwanda 
authorities have targeted several political opposition figures 
for questioning or arrest. I mean, he's not even satisfied that 
he got his outcome. Now he has to go after them and crush them 
now.
    Mr. Yamamoto. You know, as I said, Mr. Chairman, that the 
relationship is complex but it is also a mixed record and I 
know your position and we respect it and do emphasize that we, 
as the government, are committed to looking at the concerns 
that you have raised today and that we have raised them as well 
directly with the government, and we continue to raise them and 
to work with them to improve those areas where we believe that 
we can make a difference.
    And in some areas the Rwandan Government has made dramatic 
increases from child labor issues to allowing opposition 
parties to debates to accepting recommendations from the peer 
group under the U.N. operations and to look at. So we note that 
there is progress but there are, obviously, areas that we still 
need to work on and we are doing that.
    Mr. Smith. Let me ask you one final question. Major Robert 
Higiro, obviously, testified before. He is here today, and he 
was not believed at first by the State Department and I know 
you have to do your due diligence and I deeply respect that. My 
understanding is that you came to the conclusion that he had a 
credible case when he came forward and said that he was offered 
money--$1 million--to assassinate a general and a colonel who 
had fled Rwanda to South Africa.
    In his testimony today, he thanks America profusely. He had 
a death threat against him when he was living in Belgium and 
now has come to the United States.
    He points out in his testimony that members of the 
opposition parties and the media continue to disappear. Present 
tense--not past tense, present tense.
    How do you assess his revelations and this idea that 
members of the opposition parties and media continue to 
disappear?
    Mr. Yamamoto. You know, our position remains very clear. We 
have received the book from Mr. Higiro and I will diligently 
read that in detail.
    But, again, we remain concerned by the history of Rwanda's 
treatment of opposition people and the issues that were raised 
by Mr. Higiro and others, those are issues and concerns that we 
will pursue and follow and follow up on.
    And, again, on the other side, for the Rwandan side, is we 
continue to help Rwanda build strong democratic institutions 
and those--that is really fundamentally the bottom line is to 
build those institutions which can address those concerns that 
we have raised and continue to raise and those are issues that 
we share with you, Mr. Chairman.
    Mr. Smith. But, again, on those institutions, you're 
talking about an electoral process that is egregiously flawed, 
where is the success in building that institution? It just 
facilitates a 99 percent vote.
    Mr. Yamamoto. We have faith and confidence that through 
these--through our efforts that we will be able to work with 
this government and also others because we do see positive 
developments and through, I think----
    Mr. Smith. Do you see a change of attitude on the part of 
President Kagame?
    Mr. Yamamoto. I think that in certain areas we have seen 
improvement. In other areas, we see----
    Mr. Smith. He will be there until 2034, right?
    Mr. Yamamoto. Under the changes in the constitution if he 
gets elected two more times, sure.
    Ms. Bass. Thank you.
    Mr. Ambassador, what role, if any, should the U.S. play in 
supporting Rwanda's stability and efforts to improve the 
quality of lives of Rwandan citizens and what role should 
Congress play?
    Mr. Yamamoto. First of all, we extend our deep appreciation 
to you, Madam Congresswoman, and to you, Mr. Chairman, for all 
the efforts and issues you have raised to highlight the 
concerns that you have on Africa but also on a wide range of 
issues.
    So the stability of not just Rwanda but of the region and 
the states is critical not only to the security of that area 
but also stability and concern for the entire continent, and 
also it goes into our national strategic interest.
    So let me say to your question is what is it that we would 
like to achieve? We would like to see a stable democratic 
country which respects the rights of the citizens, respects the 
rights and freedoms of a free press and that it helps with the 
education opportunities and opportunities in general of its 
people.
    Ms. Bass. So what are we doing in that regard, especially 
in regard to democracy and governance?
    Mr. Yamamoto. To that end, we have several USAID programs. 
I think our development and assistance and assistance overall 
is about $159 million a year.
    On the one hand, on security side, the Rwandans have 
remained extremely supportive and a very good partner in 
peacekeeping operations and troops.
    On the side of health care, you cited, Madam Congresswoman, 
of the tremendous changes that they have made through health 
care, through HIV/AIDS progress.
    Ms. Bass. Yes.
    Mr. Yamamoto And also on women playing a constructive role 
in society, and also girls education and women entrepreneurs. 
Those are areas that are positive and really stand as symbol 
for other countries as well.
    Ms. Bass. So in terms of our democracy and governance?
    Mr. Yamamoto. And our democracy and governance is to create 
strong institutions and, again----
    Ms. Bass. We have specific programs. I worry about this 
specific area because I know in the proposed cuts, if I am not 
mistaken, this takes a major hit.
    Mr. Yamamoto. And that does. Rwanda's democratic 
institutions are still developing. We believe that and we need 
to focus more on creating those strong institutions which can 
carry between this President and to the next President and also 
for successive leaderships.
    That is what we want to achieve and I think those are the 
objectives and goals that we are committed to along with our 
NGO partners and also our discussions with the Government of 
Rwanda.
    Ms. Bass. So to what extent is Rwanda's continued 
development progress contingent on continued donor aid or how 
much is independent?
    Mr. Yamamoto. In other words, to tie assistance to 
benchmarks for development and--so on health care you can't 
set--the benchmark is progress and that progress is clear and 
evident----
    Ms. Bass. Right.
    Mr. Yamamoto [continuing]. From livelihood and length of 
life expectancy and health care and HIV/AIDS. When you talk 
about development and human rights and democratic values, we 
have laws in place from our AGOA trading investments.
    There is an aspect on democracy and human rights. As you 
know, we have written letters of warning to the government on 
human rights issues.
    On the other issue is we have the Child Soldier Protection 
Act (CSPA) law and then the other law that the Congress has 
passed on the 2017 Appropriations Act.
    So those are areas that we look at and say that these are 
areas that we can hold the Government of Rwanda accountable. 
So, for instance, we had suspended FMF--foreign military 
financing. We had suspended IMET--military education. And, 
really, this is----
    Ms. Bass. What about direct military assistance?
    Mr. Yamamoto. And direct military. We had not----
    Ms. Bass. We suspended it. We suspended education and we 
suspended----
    Mr. Yamamoto. The FMF. Right. But in this past year we have 
not renewed FMF but we have renewed--we have continued with 
IMET because really in that----
    Ms. Bass. What did you say IMET was again?
    Mr. Yamamoto. International Military Education Training 
program.
    Ms. Bass. Uh-huh.
    Mr. Yamamoto. So the IMET program really is, in many ways, 
our--it is in our national interest as well because by taking 
Rwandan troops and officers to the United States----
    Ms. Bass. Yes.
    Mr. Yamamoto [continuing]. To give them an education on 
human rights, that makes them a better officer.
    Ms. Bass. Thank you.
    Mr. Smith. Thank you very much, Ms. Bass.
    Just one final question. The State Department has long 
declined to accept the various U.N. reports of Rwandan 
involvement in the smuggling of resources from the Democratic 
Republic of the Congo or its support for militia inside the 
country. What is the view of the department today? There are 
two reports on that.
    Mr. Yamamoto. So we--so we continue monitoring the conflict 
minerals in the Congo, which countries and operations are 
developing, from foreign countries to regional states, et 
cetera, and Rwanda has been in--in that area have been very 
supportive, passing laws to monitor the conflict minerals and 
we have been working with the Rwandan Government to reinforce 
those laws and also to criminalize any individuals who has 
engaged in illegal or illicit trading.
    Mr. Smith. And, again, getting back, briefly, to Robert 
Higiro, does the State Department believe him to be credible?
    Mr. Yamamoto. I respect Mr. Higiro very much. I think the 
position he held as an advisor to President Kagame and the 
words that he presents in his testimony as the next witness I 
stand ready to listen to what he is going to present and the 
concerns of human rights, et cetera, we will continue to look 
into those issues.
    Mr. Smith. Now, this is Major Robert Higiro, who, again, 
was offered $1 million to kill. So you believe he's credible?
    Mr. Yamamoto. I respect him as an individual who has had a 
senior position in the government and his issues of human 
rights abuse or other concerns is an issue that we will look 
into and we will work with him.
    Mr. Smith. Because David Himbara was very high up with the 
government but it is the major who was offered this incentive 
to murder people. So you believe they are both credible?
    Mr. Yamamoto. So let me--we will stand and listen to his 
testimony today and we will have other--further conversations 
later with him.
    Mr. Smith. Thank you very much, Mr. Ambassador.
    Mr. Yamamoto. And thank you, Mr. Chairman and Madam 
Congresswoman----
    Mr. Smith. Thank you.
    Mr. Yamamoto [continuing]. Not only for having this hearing 
but also for your concern, and we remain committed to working 
with you because I think we share a very commonality in what we 
want to achieve.
    Thank you very much.
    Mr. Smith. Thank you so very much, Mr. Ambassador.
    I'd like to now invite to the witness table, first 
beginning with David Himbara, who is coordinator for Canada at 
Democracy in Rwanda Now.
    As a former close aide to President Paul Kagame, Mr. 
Himbara held a leading role focused on socioeconomic 
development in Rwanda. Tasked with improving national 
competitiveness, he spearheaded efforts that ultimately 
improved Rwanda's ranking in the World Bank's annual Doing 
Business Report. He's an author and his latest book is 
``Kagame's Killing Fields.''
    Next, we will hear from Robert Higiro, who is coordinator 
for the United States at Democracy in Rwanda Now. Prior to 
moving to the United States, he served as a major in the 
Rwandan Defense Force.
    He was part of the force that took control of Kigali in 
1994 that toppled the then-Hutu government and helped bring an 
end to the genocide in Rwanda.
    After his decommission, he was tasked by the Rwandan 
Government with assassinating officials and dissidents that 
fell out of favor with the Kagame regime. Instead of following 
those orders, Major Higiro went to the press and unveiled the 
plot at great risk to himself. It led to his being insecure in 
Belgium and the need for him to move to the United States for 
his own personal security.
    We will then hear from Mr. Mike Jobbins, who serves as the 
Africa Program's manager for Search for Common Ground. He 
previously worked in Search for Common Ground field programs in 
the DRC in Burundi where he supported the startup and 
management projects on SGBV prevention, refugee reintegration, 
security sector reform, and post-war governance.
    Mr. Jobbins has led field missions in humanitarian and 
emergency settings in North Katanga, North Kivu, Equateur 
provinces of the DRC. He also testified previously before this 
subcommittee.
    And then we will hear from Adotei Akwei, who serves in the 
government relations office for Amnesty International. Mr. 
Adotei is a political analyst and experienced advocate and 
campaigner, a U.S. foreign security policy advisor as well as 
an advocate for rights-based approach to ending poverty with 
field experience in Africa as well as in Asia.
    He is also a regular spokesman for Amnesty International 
USA, for print, radio, and television in the United States, 
Europe, and Africa and he, too, is welcome back to our 
committee.
    Mr. David Himbara, if you would begin.

    STATEMENT OF MR. DAVID HIMBARA, COORDINATOR FOR CANADA, 
                    DEMOCRACY IN RWANDA NOW

    Mr. Himbara. Chairman Smith, Ranking Member Karen Bass, 
ladies and gentlemen, I thank you very much indeed for giving 
me--giving me the opportunity to talk about democracy and human 
rights in Rwanda.
    I would like to talk about three things. First, I want to 
give the context of the recent elections. Then number two, I 
want to talk about the elections themselves, and then number 
three, I wish to talk about post-elections.
    The context of the elections in Rwanda was the 
constitutional amendment made in 2015. The constitutional 
amendment did two things. One, it removed a very, very 
important part of the previous constitution which said that, I 
quote, ``under no circumstances should President of Rwanda 
serve more than two 7-year terms.'' Why was this in the 
original constitution?
    It was in the original constitution because, historically, 
since independence, each leader in Rwanda has come through 
violence and then was removed by violence, and each of those 
Presidents--and the main ones have been three--in their terms 
each one managed to win elections by 98 percent. So this is not 
just a Kagame issue. All of them.
    And, of course, as I said, they became a power unto 
themselves and we have not had any peaceful transfer of power 
in Rwanda.
    So that was the importance of that clause that under no 
circumstances. This is what was removed by the amendment so now 
President Kagame can stay in power until 2034.
    Now, there was something even worse than that. There is 
something even worse than that in the amendment. In the new 
constitution they inserted what we call Article 114 and it is 
called exemption from prosecution for a former head of state.
    The article reads, ``A former President of the republic 
cannot be prosecuted for treason or serious and deliberate 
violation of the constitution when no legal proceedings in 
respect of that offense were brought against him while in 
office.''
    Well, of course, it cannot be brought against him while 
he's in office because he has immunity. So Kagame has immunized 
himself even after he leaves power.
    This article basically gives him license to commit any 
crimes without any consequences. How do we explain this? By the 
way, incidentally, I must say with a bit of sick humor these 
amendments are being made by the women majority of Parliament. 
These are women in the majority of Parliament at work.
    So the numbers of women is great but the quality of work 
they do is rubber stamping the worst possible. Okay.
    So why is he doing this? We already know that even to come 
here in the United States Kagame had to be given immunity.
    The Obama administration asserted immunity for him because 
there are already cases about the alleged role in the shooting 
down of the previous President. This is the background behind 
this.
    But we also know that currently in the International Court 
of Justice there is a quote by Congo that accuses Kagame the 
crime of killing 3.5 million people. Rwanda and Uganda were 
both taken to this court.
    Uganda pleaded its case and lost and is paying reparations. 
Rwanda denied jurisdiction of the court.
    So this case won't disappear. It is sitting in there 
somewhere. So that is the context. That is the context.
    Then the elections themselves--I don't have to say much 
because a lot was covered--99 percent out of 96 voter turnout. 
This begins now to take us closer to the situation of North 
Korea. But, incidentally, this clause that frees Kagame from 
any prosecution, I have looked at the worst dictatorships. I 
have not found any such protection.
    Now, the elections themselves--I want to quote the British 
Ambassador. The British Ambassador was among the observers of 
the elections so I quote him.
    He says that, ``Along with other international observers, I 
personally saw irregularities with the counting of ballots and 
voter tabulation.''
    And then he concludes, ``We are concerned by the arrests 
and it is concerning to see the targeting of opposition 
figures.'' This is the British Ambassador in Rwanda.
    So I really don't have much to say but now let me talk 
about post-elections. Post-election is now revenge. It is a 
period of revenge. It is a revenge big time, and revenge has a 
single in particular--Diane Shima Rwigara.
    Why her? Why her? There are a number of reasons why her. 
First of all, she is the one who dared to raise issues of 
democracy, issues of human rights, issues of moral corruption, 
and by moral corruption she was saying that even in this 
economic miracle people talk about the ruling party itself has 
accumulated so much wealth that its conglomerate, Crystal 
Ventures, is now worth $500 million while the same government 
punishes and destroys other businesses.
    Rwigara's own father was killed 2 years ago in a serious 
accident. When the family protested, the government moved on 
and demolished their hotel.
    A month ago, another hotel, a competitor to the ruling 
party--Tower Hotel--was demolished in broad daylight. Just 2 
days ago, the leading Rwandan businessman, Tribert Rujugiro 
Ayabatwa, his $20 million Union Trade Center was seized and 
auctioned for $8 million.
    So I guess I am running out of time. I see some signals 
there.
    So in conclusion, what we have here is a very costly 
experiment. Even those people who talk about the good things--
the women in parliament--by the way, those women are--no one 
has voted. That Parliament is a list compiled by the ruling 
party--the senators, half of them appointed.
    Don't confuse the senators in Rwanda with the senators in 
United States or Congress people. No. These are lists--party 
lists. Those who are not elected by the President, they are 
elected by people he has appointed in other institutions.
    Business success, absolutely not. Yes, if we talk about the 
President traveling in a $60 million plane rented from his own 
business at the taxpayers' cost, if that is success--I don't 
think so.
    So what should the United States be doing? I think the 
United States, in my view, has overcompensated. During the 
Clinton years during genocide, the government stood by while 
terrible crimes were committed.
    Then comes Kagame. So now we have gone overboard. He can do 
no wrong. I think that it is time that we take a closer look. 
We are not asking by any means to say stop health support or 
stop education. No. But the same military that you are 
supporting is the same military that is killing its own people.
    So what is good with a military that is doing great in the 
full when it is mowing down people in Rwanda and Congo? There 
is a problem there.
    I will simply say this. But first of all, I conclude by 
thanking you very much for having this hearing but also let me 
thank the Congress because I believe that in the budget law of 
2017 there is a clause in there that says that for any 
government in the Great Lakes region to receive military 
support the State Department must verify if this government--if 
any government is causing havoc--they are not using those 
words--is causing havoc in the neighborhood.
    So I think you ought to hold your State Department 
accountable to see if they are doing this because we know for 
sure that causing havoc in Burundi or in Congo has not stopped, 
which I am sure my colleague here will say more about.
    I thank you so much for giving me a few minutes to talk.
    [The prepared statement of Mr. Himbara follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Smith. Mr. Himbara, thank you so very much for your 
testimony.
    I would like to now recognize Robert Higiro.

    STATEMENT OF MAJOR ROBERT HIGIRO, RWANDA DEFENSE FORCE, 
RETIRED, COORDINATOR FOR THE UNITED STATES, DEMOCRACY IN RWANDA 
                              NOW

    Major Higiro. Chairman Smith, Ranking Member Bass, members 
of the subcommittee, ladies and gentlemen, good afternoon.
    I thank you for giving me the opportunity to give testimony 
on democracy and human rights in Rwanda. I wish to give 
evidence. My purpose today is to give evidence to the fact that 
democracy in Rwanda is impossible because of the environment 
that exists in the country right now. The commander-in-chief of 
the Rwandan security forces are part of the problem. Their 
purpose is not to provide security, but, rather to kill 
Rwandans and cause chaos in the region.
    Let me begin with President Kagame himself. He is on the 
record after the 2016 State Department report when they are 
concerned by disappearances saying, those who talk about 
disappearances are wasting time. As he puts it, ``We will shoot 
them, if possible, in broad daylight.'' That is the President 
saying it; I am just quoting him. It is not my words; it is his 
words. We have seen the follow-up of his senior commanders, 
brigade commanders, division commanders, echoing the same tone, 
especially in the western region.
    In the 2016 State Department's Human Rights Report, it 
gives the most recent relatives in Rwanda. An increasing number 
of people have disappeared or have been reported missing since 
May 2015. That is since our previous hearing. Many of the cases 
occurred in Rubavu district in the Western Province. According 
to Human Rights Watch reports, most of these people were 
detained by Rwanda Defence Forces, and we believe that they are 
in military custody. Witnesses saw some of the local 
authorities participating in this activity. One was the 
executive Secretary in Rubavu district by the name of Mugisha. 
He was seen taking part in those who were forcibly being 
kidnapped together with security agents. Imam Mohamed 
Mugemangango was shot and killed while in custody. At least 
half a dozen of people have been murdered by the security 
forces while in prison.
    Extrajudicial killings recently increased as the security 
forces cleared the capital of Kigali and major towns of poor 
people, unemployed, and the homeless. Authorities are rounding 
up poor people and arbitrarily detaining them in transit 
centers. They have transit centers across the country. In its 
2017 report, Human Rights Watch proved chilling details of 
extrajudicial killing of 37 Rwandans suspected of petty 
offenses such as stealing bananas or a car or a motorcycle in 
the Western Province. That was between July 2016 and 2017. 
Soldiers have continued to arrest and shoot most of the victims 
in what appears to be an officially-sanctioned strategy by the 
government.
    The claims by the state against Rwandans never stop, and 
this includes dissidents, those inside the country, and they go 
as far as Europe. That is why I am here. I try to travel as far 
as possible; they still come for you. We will get a chance to 
elaborate on that.
    Rwanda's destabilization of neighboring countries has also 
not stopped, particularly in the Democratic Republic of Congo 
and Burundi. In 2013 in DRC, Rwanda disarmed over 770 M23 
Congolese rebel combatants it had previously sponsored to take 
over the eastern part of the DRC. After the defeat of M23, over 
770 crossed into Rwanda, the same number, and were detained in 
Ngoma. According to the 2016 State Department report, the same 
number mysteriously vanished. There can be no doubt about their 
role; they are Rwanda's proxy army used to destabilize the 
neighbors.
    In the case of Burundi, Rwanda stands accused of recruiting 
Burundian refugees into the armed groups who seek to overthrow 
the government of President Pierre Nkurunziza. In its report, 
``Asylum Betrayed: Recruitment of Burundian Refugees in 
Rwanda,'' the Refugees International rebuked Rwanda in the 
following terms: ``The Rwandan Government must act at once to 
ensure the civilian and humanitarian character of asylum and 
protected refugees from recruitment by non-state armed actors. 
To that end, it must ensure that all efforts to recruit 
Burundian refugees into armed groups--whether on or emanating 
from Rwandan territory, and whether committed by Burundian or 
Rwandan nationals--cease immediately.'' That was Refugees 
International. ``Rwanda must also affirm publicly that the 
recruitment of refugees into non-state armed groups on its 
territory is a violation of international and Rwandan law.''
    Mr. Chairman, I can't repeat what has been said, whether it 
is on the peace prospect or the corruption. That is why I want 
to conclude by thanking you once again for conducting this 
congressional hearing on Rwanda. We trust that the United 
States, being the main donor to Rwanda, will make its support 
conditional to ending terror on its own people and the region.
    Thank you very much.
    [The prepared statement of Major Higiro follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Smith. Major Higiro, thank you very much for your 
testimony and for your insights.
    I would like to now recognize Mr. Jobbins.

STATEMENT OF MR. MIKE JOBBINS, MANAGER, AFRICA PROGRAMS, SEARCH 
                       FOR COMMON GROUND

    Mr. Jobbins. Thank you. Chairman Smith, Ranking Member 
Bass, and guests, it is an honor to join you today, and I thank 
you for the work and to shine a candle to the crises facing 
Africa and its Great Lakes region. I have been before you 
before on Burundi and CAR and greatly appreciate you 
maintaining the attention there.
    My name is Mike Jobbins, and for the last 9 years I have 
worked with Search for Common Ground throughout Africa and 
around the world. Search is a conflict transformation 
organization and we work to support peace, reconciliation, and 
inclusive governance here in America and in 44 countries around 
the world.
    The testimony that follows is informed by my experience 
with Search, but the opinions are my own, and I ask that the 
written testimony be entered into the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Jobbins. Search was founded on the philosophy that 
conflict is an inevitable part of human societies, and our aim 
is to promote the positive aspects of conflict through 
dialogue, inclusive decision-making, and creative thinking, 
while preventing the negative aspects, including violence, 
oppression, and humanitarian suffering.
    We prioritized the Great Lakes beginning in 1995, opening 
our first office in Bujumbura, as the region was wracked by one 
of the worst periods of destructive conflict that the recent 
history has seen, and made a long-term commitment, expanding to 
Rwanda in 2006, with the aim of supporting inclusive decision-
making and reconciliation efforts following the tragic 
genocide.
    Over the past decade, Search worked with Rwanda media, 
government, civil society, and local communities to support 
reconciliation; address land disputes; build a capacity of 
civil society and government institutions, with a particular 
focus on youth and women in rural areas. And in preparing 
today, I was asked to speak specifically to our work in Rwanda 
focused on economic and social rights, particularly around land 
as well as on supporting reconciliation and post-conflict 
governance on the ground that affect ordinary Rwandans in the 
country. And so, my testimony will focus primarily on those 
topics.
    To set the scene, Rwanda is the most densely populated 
country in Africa, as has been noted. To bring that home, it is 
slightly smaller than the state of Maryland with twice as many 
people, nearly all of whom are dependent on subsistence 
agriculture, and the population is growing quickly. When I 
started first working with Rwanda 10 years ago, there were 9 
million Rwandans. Today there are 12 million. And that is 33 
percent grown in just 10 years.
    So, it is growing quickly and the underlying math is very 
clear. Rwandans needed, and still need, rapid economic 
diversification and growth as well a system to effectively 
manage land disputes and competition and the stresses that 
rural populations were feeling as population grows and 
resources became depleted.
    And yet, despite the structural challenges in a dense, 
landlocked, and post-conflict country, Rwanda experienced a 
dramatic economic transformation. In the last 15 years, 
according to the World Bank numbers, the economy has quintupled 
with the GDP growing from $1.3 billion to $8.3 billion a year, 
and a lot of that has been driven by a transition away from a 
subsistence economy and commodity exports and toward greater 
value-added services, cognizant and relevant to sort of the 
stresses on rural agriculture.
    Economic growth has been facilitated, as Congresswoman Bass 
highlighted, by a regulatory environment that supports business 
and entrepreneurship in line with the government's Vision 2020. 
At the same time, in the context of scarcity, disputes over the 
allocation, access, and ownership of land remain the most 
common cause of conflict for ordinary Rwandans. The government 
has tried to address this issue by adopting policies and 
putting in place local conflict mediators known as Abunzi. 
These mediators are put on the frontlines of solving serious 
disputes among stressed rural populations faced with large 
caseloads, varying degrees of training, and confronted with 
serious social obstacles, particularly around gender. While 
women are legally entitled to inherit property and, as noted, 
there has been a great emphasis on women's political 
participation, the right isn't always necessarily recognized or 
respected in practice, due to traditional norms and struggles 
that ordinary rural women have to access justice.
    And so, to support alternative dispute resolution, Search 
partnered with the Ministry of Justice to support 4,000 Abunzi 
mediators, including female Abunzi, to support and train 
community resource people who could serve as advocates for the 
socioeconomic rights of marginalized groups and particularly 
for women, and to produce radio programming to ensure that 
rural residents understand land laws and policies and have the 
opportunity to ask questions and raise concerns, and finally, 
to build problem-solving skills, so that communities and 
families can address land conflicts themselves without 
referring to overstretching the justice system.
    At the same time, it is clear that, given demographic 
pressure, agriculture in its current form will not sustain 
Rwanda's growing population. There has been an important focus 
from the government and from its international partners on 
developing alternative livelihoods and trying to ensure equal 
access to opportunities, particularly for rural youth and women 
to benefit from the economic transformation. But, as in all 
societies undergoing rapid high-technology economic change, the 
poorest and least educated struggle to take advantage of the 
new opportunities in the service-oriented, globalized, and 
educationally-intensive economy.
    Impediments faced by Rwandans include a lack of information 
and access to opportunities, a lack of capital and education to 
seize those opportunities, and a lack of exposure to role 
models and examples of entrepreneurship to roll those out and 
take them to scale. And so, looking forward, alternative 
livelihoods are critical and the kinds of partnerships of the 
kind we have been developing with the private sector and media 
to help ensure that Rwandans from the lowest socioeconomic 
brackets have information access to take advantage of the 
opportunities available.
    In terms of reconciliation and post-conflict governance, 
Rwanda's recovery from the horrific genocide 23 years ago has 
been held as a modern-day success story, both in reconciliation 
and good governance. Some of the statistics have been thrown 
out earlier. I would also add that Rwanda ranks 44th on 
Transparency International's Corruption Perceptions Index, some 
of the best scores of any African country.
    And this has been achieved through a governance model that 
focuses on and prioritizes professional, results-oriented, and 
technocratic governance with strong central leadership in 
policymaking and implementation. The strong coordinating role 
that the central government plays across society has helped 
stamp out petty corruption and drive a coherent policy vision 
and agenda.
    But Vision 2020 also establishes a vision for 
decentralization and ownership, local ownership, of government 
policy. Ordinary local officials face the difficult task in 
balancing the emphasis on efficiency and results with the need 
for the more cumbersome process of creating opportunities for 
citizen inputs, engagement in explaining policies to ordinary 
people. The best Rwandan administrators establish two-way 
communications with their citizens to tell and shape policy 
implementation, but in other circumstances citizens struggle to 
find a window to feed into decision-making in an environment 
where there is not a robust policy discussion.
    Socially, Rwanda has made admirable progress in reconciling 
citizens from different backgrounds who have to live together 
in their communities, despite the atrocities of the past. 
Hundreds of thousands of people have been punished for crimes 
committed, and on a day-to-day level, many people are moving on 
with their lives. At the same time, barely a generation has 
passed, a short timeframe to overcome the horror that has been 
experienced. And while the country has set aside ethnic 
identity in favor of national unity, recovery naturally takes 
time and there is an awful lot that remains to be done over the 
generations to come.
    Media and civil society are absolutely critical to creating 
the space for dialog, both about the past and about the policy 
issues to lay a bedrock for sustainable peace, participatory 
government, and effective long-term governance. Since 2006, we 
have built strong partnerships with local government and 
independent radio outlets and focused on building alliances 
based on shared interests. But it is imperative that there are 
capable organizations to facilitate sensitive dialogs on air 
and in person in an open environment, so to strengthen the 
capacity of media and civil society to work with authorities, 
and work with authorities themselves to engage the population 
in a constructive and inclusive manner.
    In view of these few observations--and I am happy to share 
more--I want to make four recommendations, in conclusion, for 
U.S. policy. First, sustaining U.S. diplomatic engagement in 
Rwanda and the region is vital. I think there is unanimity from 
everyone in the room on that point. Although there are many 
competing demands for attention in the Great Lakes region 
alone, and let alone across Africa, this region can't be 
forgotten and it deserves a high-level focus within the region, 
adequate staffing and resources, both within the regional 
bureaus as well as within Embassies and USAID missions across 
the region.
    While it may seem remote to many Americans, the horrors of 
genocide, civil war, and humanitarian crises that have been 
unleashed, and are still being unleashed in many parts of 
central Africa, have cost far too many lives, but also cost far 
too many dollars in international assistance focused on short-
term palliation of chronic crises, rather than putting the 
region and its people on a path to a greater recovery.
    Second, there are some things that the U.S. Government and 
the Congress should learn from the experience of conflict and 
recovery in Rwanda. Many conflict countries and fragile 
contacts have been beset by seesawing international attention 
focused on immediate short-term recovery, but not sustaining a 
holistic engagement to economic recovery, political 
participation, or reconciliation that are needed to sustainably 
transition from fragility. That is something that needs 
administrative action, but also congressional action to 
authorize and to support holistic approaches to conflict and 
fragility in the Great Lakes Region and beyond.
    We recognize and appreciate the leadership that the 
Congress has shown on women, peace, and security, and salute 
the bill that just passed earlier this week. We also recognize 
the Eli Wiesel Genocide and Atrocities Prevention Act, which 
has been introduced back in May and can really make good on the 
U.S. commitment to Never Again.
    Third, regional economic integration is critical, given the 
context of population density across the region and the need 
for radical economic transformation and a shared economic 
transformation. It is very clear that regional cooperation, 
which at the moment is quite beset between Rwanda, Burundi, 
DRC, and beyond, requires better cooperation across borders, 
but also people-to-people reconciliation to stabilize the wider 
region.
    Finally, it is absolutely critical that the U.S. Government 
continue its support and accompaniment of Rwanda in overcoming 
the legacy of genocide and in reconciling itself to the 
horrific events of the past. Even though Rwanda has made much 
progress in dealing with the aftermath of genocide and the 
series of massacres that have marked its history, the horrific 
past and the related trauma still affect other avenues to a 
lasting peace and stability in Rwanda and in the region. 
Atrocities of this history and their consequences should pave 
the way to a much more open society where conflicts and 
differences can be dealt with openly and through dialog. The 
U.S. Congress should focus its engagement in working with the 
Rwandan Government in supporting the Rwandan people to build a 
brighter future and to achieve this goal together.
    Thank you.
    [The prepared statement of Mr. Jobbins follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Smith. Thank you very much.
    Mr. Akwei?

 STATEMENT OF MR. ADOTEI AKWEI, MANAGING DIRECTOR, GOVERNMENT 
         RELATIONS, AMNESTY INTERNATIONAL UNITED STATES

    Mr. Akwei. Thank you. I would like to thank you both for 
this opportunity to speak before your committee and, also, to 
acknowledge and thank your consistent engagement and leadership 
on issues related to Africa, human rights, and U.S.-Africa 
policy, which has been, and continues to be, essential and 
greatly appreciated.
    Amnesty International is a global human rights movement 
established in 1961 with 7 million members and supporters. We 
have a presence in 70 countries and have offices in Dakar, 
Nairobi, Johannesburg, and Abuja. We have been working to 
improve the respect and protection of human rights in Rwanda 
since the early 1970s.
    Amnesty does not take a position on the type of political 
system a country may have. It is our belief that fundamental 
human rights must be guaranteed and upheld by all political 
systems. We do consider the rights associated with elections 
such as freedom of expression, association, assembly, among 
others, to be critical not only to the election itself, but 
also to the overall health of open political space. The way 
governments engage with critics and voices of dissent, how they 
interact with civil society and treat human rights defenders 
are critical indicators that go beyond a single election.
    With your permission, I would like to ask that our written 
testimony be submitted to the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Akwei. The August 4th elections granted incumbent Paul 
Kagame his third term in office. This followed the referendum 
in 2015 which changed the constitution, allowing President 
Kagame to stand again in 2017 and for two further terms, should 
he desire to do so. In 2010, President Kagame won 93 percent of 
the vote; in 2017, he won 99 percent.
    During the 23 years the Rwandan Patriotic Front has ruled 
the country there has been an unwavering and often brutal 
campaign against government critics and human rights defenders. 
This campaign has included a tax on political opposition 
members, including arrest, detention, disappearances and 
killings; restrictions on the media and the activities of civil 
society organizations, and the creation of a climate of fear. 
These concerns have been echoed by other human rights groups 
and the United States Department of State, which noted in its 
2016 report: Government harassment, arrests, and abuse of 
political opponents, human rights advocates, individuals 
perceived to be a threat to government control and social 
order, restrictions on the media and the civil liberties. The 
attacks and the campaign have included, as mentioned above, 
attacks on the political opposition and, of course, the 
restrictions on the media and civil society.
    In 2010, Amnesty reported that the authorities tightly 
controlled political space in advance of the 2010 elections. 
Freedom of expression was unduly restricted by broad laws on 
genocide ideology. Human rights defenders continued to exercise 
self-censorship to avoid confrontation with the authorities, 
and conventional courts still fell short of fair trial 
standards.
    In 2011, we reported that authorities restricted freedom of 
expression and association. Media outlets that criticized the 
government were closed down, editors fled, human rights 
defenders faced intimidation, investigations into killings were 
inadequate.
    In 2012, Amnesty reported that the Rwandan Government 
increasingly prosecuted individuals for criticizing government 
policies and that there was a rise in unlawful detentions. 
Violations included restrictions that were imposed on freedom 
of expression arrests, unfair convictions of opposition 
politicians and of journalists.
    In 2013, Amnesty reported that the government still 
continued to stifle legitimate freedom of expression and 
associations; that the illegal detention and allegations of 
torture by Rwandan military intelligence were not investigated. 
This was the same year that the Rwandan Government was also 
found by the U.N. group of experts to have provided military 
support to the M23 armed group in the neighboring Democratic 
Republic of the Congo, which was linked to rape, extrajudicial 
execution, and the use of child soldiers.
    The government's crackdown and restrictions on expression, 
assembly, association, repression of journalists, human rights 
defenders, and member of the opposition parties who openly 
criticized the ruling government, use of unfair trials, and 
unlawful detentions were raised in our reports of 2014, 2015, 
and 2016. In 2017, we reported on the severe restrictions that 
we thought were going to color and shape the run-up to the 
elections. This was the result of over many years of the same 
types of actions.
    It is time for the international community to press the 
Rwandan Government to change. Some have argued that Rwanda is 
still emerging from the 1994 genocide. Others have argued that, 
because Rwanda is doing well economically, the current 
administration should be given more latitude. These arguments 
must be rejected as they will subvert the common obligation to 
stand for rights accepted to be universal and that countries 
have committed themselves to, including Rwanda.
    Amnesty International has called upon the Government of 
Rwanda to embark upon a longer-term reform process, to open up 
political space before the 2024 elections and, as you 
mentioned, before the 2018 parliamentary elections, and 
strengthen basic protections of rights beyond those.
    The concerns I have outlined impact more than the next 
election, and addressing them will require more than a 
temporary easing of some laws, the release of a few people, or 
even the permission to register a political party or NGO. The 
assault on defenders and political space is quickening, and 
Rwanda is becoming a role model for the wrong things as opposed 
to the right things. It is not good for Africa. It is not good 
for the United States or for the global community, as history 
is littered with many examples of countries where political 
intolerance has led to political conflicts, and that has been 
extremely damaging. The global community failed Rwanda once 
before. It should not do so again.
    Specifically, we would like to suggest that Congress and 
the Trump administration call on President Kagame and the 
Government of Rwanda to prevent and ease restrictions on or the 
harassment of members of the political opposition, their 
supporters, on journalists, and human rights defenders, and 
establish an independent judicial investigative mechanism into 
serious violations of freedom of expression, assembly, and 
association. We have named a number of specific individuals who 
have disappeared that should be investigated.
    Congress and the administration should also urge the Rwanda 
Government to decriminalize defamation offenses and the review 
of the Rwanda penal code. We would also urge the United States 
to call on the Rwandan Government to reform the law on public 
assemblies and to remove the requirement for prior 
authorization for public assemblies and, instead, a regime of 
prior notification.
    We would also urge Congress to maintain and increase 
funding for programs focused on building respect for human 
rights, the rule of law, and independence of the judiciary. I 
would like to echo my colleague from Search who raised the 
issue of building the capacity of civil society and the media. 
These are critical institutions and have to play their role in 
establishing, along with the Rwandan Government, good 
governance, human rights, and respect for the rule of law.
    I will stop there. Thank you.
    [The prepared statement of Mr. Akwei follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Smith. Thank you, Mr. Akwei. And thank you, all of you, 
for your tremendous input today. I do have a few questions I 
would like to ask.
    One, I am concerned--and I have deep respect for Ambassador 
Yamamoto--that we seem to be overvaluing, the State Department, 
the U.S. Government, some facts like the participation of the 
Democratic Green Party, which got approximately 1 percent of 
the vote. Others who wanted to participate were precluded that 
opportunity, and then, as he said, the holding to account of 
the harassment of opposition candidates that was reported in 
the Rwandan media. Whether or not that is true, I still don't 
know. Was it a report, a false report, a sensational report 
that, oh, we are holding officials to account? That is not 
clear.
    But, even in his own testimony, he goes on to say, as I 
quoted earlier, ``Since the election, Rwandan authorities have 
targeted several political opposition figures for questioning 
and arrest.'' And then, he goes on and, accurately, quotes from 
the Country Reports on Human Rights Practices, pointing out 
arbitrary or unlawful killings by security forces, disregard 
for the rule of law, restrictions on civil society 
organizations, government interference with the press, which 
Mr. Akwei again and others have already made in their 
testimonies in terms of the crackdown on journalists. It is 
hard to call that some progress, frankly, when it seems to be 
going in the precisely opposite direction, where the percentage 
of the vote claimed by the President goes even higher than the 
previous one, and he is in for life based on the constitutional 
changes.
    Your thoughts on that? Because I think we sometimes turn 
the page far too quickly, if it should be turned at all, and we 
are willing to look at one little seemingly bright, shiny 
object that we can, then, cling to, and it is a surface appeal 
argument. It has surface appeal that the Green Party 
participated, but what about all the others? It is a talking 
point that a lobbyist might want to push forward to a less-
than-critical set of eyes and ears. So, I am concerned about 
that. Your thoughts on that, overvaluing this what I think is 
regression, not progress, by the Kagame regime?
    Secondly, as you pointed out, Mr. Himbara--and I should 
have asked the Ambassador; I will by way of a written 
question--when you pointed out and brought further attention to 
Article 114, which gives immunity, which often means impunity. 
Because if you are not going to be held accountable ever for 
anything you do in office, including rape, having your soldiers 
rape and kill and extrajudicial killings, and the like, you are 
above the law completely for life. That needs to be much more 
further emphasized in our bilateral relations and, hopefully, 
in a multilateral way with Rwandans. If any of you would like 
to comment on that?
    And I thought your point, Mr. Akwei--and I quoted it 
earlier, but it bears repeating--when you say, and you have so 
brilliantly, reported on severe restrictions on human rights 
defenders and the media, and the like, and you have done it 
painstakingly. You also point out that the international 
community, including the Clinton, George W. Bush, Barack Obama 
administrations, has been, at best, halfhearted in confronting 
President Kagame and pressing the Rwandan Government to reform 
its policy regarding human rights and political space. Those 
kinds of omissions on the part of bipartisan administrations is 
unconscionable because at the end of the day people get killed, 
women get raped and abused, people go to prison, journalists 
get harassed, and the people don't get the truth because it has 
a chilling effect on what they write.
    So, if you could speak to that as well? Because now we have 
a new administration. It doesn't have all of its people in 
place yet. But we need to say clearly and unmistakably to the 
new White House: Don't repeat the bipartisan error of the past, 
because we will get the same outcome. We will get more 
impunity. So, whoever would like to go first? Yes?
    Mr. Himbara. Mr. Chairman, very often we talk about a 
smoking gun. I think Article 114 is a smoking gun. Article 14, 
as you said, it is an opportunity. I wrote, in preparation for 
this hearing, I wrote--or I read as many constitutions as I 
could find anywhere, including even the constitution of the 
Democratic Republic of North Korea. I could not find a 
constitution that gives a green light to a head of state, not 
only to commit crimes while in office, but also after he has 
left office. So, I would assume that he is probably thinking 
that, after he leaves office, he will probably put in a puppet 
that would refuse to enforce international laws and say, 
``Look, you can't touch him here. He's here.''
    Because, as I said, there are cases here already in the 
U.S. And in the U.S., this is a country where even a sitting 
President can face law. So, really, the United States or even 
the United Kingdom, this is a country that--Rwanda is a member 
of the Commonwealth. How does the Commonwealth allow a country 
that gives a green light to criminality on the part of the head 
of state and get out of it?
    So, here I would say that we should begin right there. We 
can plan for the removal, because either you want to be 
President and lead and build the economy and do these wonderful 
things, empower women--that is great. But, if you make a 
mistake, you cannot be above the law.
    Thank you.
    Major Higiro. Yes, thank you, Mr. Chairman.
    Normally, I like to go into the details of, if what Mr. 
Jobbins just said, if what the State Department just said is 
true, whether it is government building institutions in 
Rwanda--so, what is the problem? Why is it that things are not 
working?
    I asked him before he started that, if Rwanda can really 
develop so quick like they are saying--it is a landlocked 
country, we have neighbors--how do they do it? How do it that 
Burundi can't copy that, or Tanzania, or Uganda, or the DRC? 
What is the magic? And if there is no issue, why are we here?
    So, I like bringing to this committee exactly what I am 
worried about. One, prisons criminalize Rwandans. And we all 
know when you push people to the wall what happens. How did we 
get to 1994? What really happened to get to 1994? It is this: 
We talk about issues and people choose which side they want to 
be on. They choose which truth they want to bring up. 
Personally, I can talk about the genocide because I was there. 
Sometimes Rwandans talk about the genocide; people have 
different views. But, when it comes to me as a soldier who 
tried to rescue people during genocide, I fought for 3 months 
before we took over. I know exactly what happened. I know how 
the Tutsis were being killed. I know of the crimes.
    Then, we have what happened from 1994 to date. Again, I saw 
it until 2010, when I was decommissioned. I was serving the 
United Nations. I was a peacekeeper. I had two tours in Darfur, 
one as a commander of soldiers, another one as a staff officer 
heading the sector's information.
    I know, too, that. I know how they work. I know the 
discipline of the Rwandan soldiers. I know where it comes from. 
And what I have been striving to give you and the State 
Department, and other elements of the government, is the truth. 
What people have to do with it is not up to me. But Kagame 
knows all this. He knows we are going to come here and make 
good speeches, talk about the corruption, and, you know, he 
will say corruption is everywhere in the world.
    And most of the people who still go to Rwanda--it doesn't 
matter where you are working; it doesn't matter where you come 
from; it doesn't matter if you are Rwandan--in most cases, they 
will never criticize Rwanda. Do you know why? Because that is 
their end.
    The previous region representative of the Great Lakes 
region, he failed to do his job. You either say what he is 
telling you or don't come back. And it doesn't matter which 
level they are on.
    Now criminalizing Rwandans is in two ways. The Hutus, if 
you follow deeply, most of them are reluctant to talk about the 
current situation. Why? The moment you do that you become a 
genocider. Therefore, we have had cases for the Hutus, and some 
of them have been deported from the United States, have tried 
to engage with the United States Government about these cases. 
We are not saying we are supporting those who participate in 
genocide, no. We are saying we need fair justice. Try them 
here, right? Because there is no justice in Rwanda. No, that is 
the problem.
    So, the Hutus have to keep quiet because they are 
genociders--that is it; no defense at all--everybody, even 
those who are born today. Kagame himself said, even if they are 
children, they have to be responsible for their parents' 
crimes. So, up to when are Hutus going to be free? We don't 
know as long as he is still living.
    Now the second criminalization of Rwandans is the Tutsis. 
Today the opposition political parties in the diaspora, some of 
them have sympathizers inside the country, have raised the 
paranoia in the country to the government. So, even these 
recent arrests--for example, Diane Rwigara, I am very sure soon 
you will hear that she is part of those political parties.
    We have a group of five political parties who form the 
coalition, and it is increasingly becoming stronger and, you 
know, they are gaining voice. I have spoken this or discussed 
this with the State Department because we always say, what is 
the alternative? Should we just say Kagame is bad and that is 
it? No. Rwandans have alternatives. They have seen that there 
is no Hutu government which is going to work; there is no Tutsi 
government which is going to work. That country was made for 
them both.
    The reconciliation he talked about is a fake 
reconciliation. There is no way you can say that there is 
reconciliation in Rwanda. By picking a Hutu to become a prime 
minister every single time or some of them--he changed them in 
the middle of the term--does not mean reconciliation.
    When Kagame has rallies in the western region where it is 
predominantly Hutu, when the Hutus show, it is a military 
operation. They start beating them up and driving them to the 
scene around midnight when Kagame is going to appear the next 
day around 3:00. Yes, that is what happens.
    So, everything we see is a shawl. What they do, what 
Rwandans are concerned about, the Rwandan Government is 
concerned with two issues. When you get $400 million and you 
construct a trade center, a convention center, $400 million, 
what you are doing is protecting, showing the image of the 
country, right? Because $400 million can do a lot to the 
population, build schoolhouses, water, everything that they are 
lacking in the interior. So, the image of the country, that is 
what they show everybody who goes to Rwanda.
    Two, the image of the President, it is only him who can do 
it, no one else. That is what they fight for. If you don't do 
it, that is it. Now, today it is not about the Hutus and 
Tutsis; it is everybody.
    We have concerns with what is happening to families of 
these people who have already been killed, as has been 
mentioned. We have issues in the military. Four colonels were 
recently arrested and taken to unknown locations. It is in my 
submitted report. Many generals and colonels are out of a job.
    And that is why I say that where we are today in Rwanda is 
where we were just before 1994. Suppose anything happened in 
Rwanda. Suppose Kagame got sick and died. What happens with all 
this tension?
    Thank you, Mr. Chairman.
    Mr. Jobbins. Thanks for the question.
    Just to focus on two things, I think one is, as we look at 
political discourse and the political life in Rwanda today, the 
way that we engage on these questions is fundamentally conflict 
and reconciliation. There is no such thing as a success in 
conflict resolution or reconciliation, neither here in America 
nor Europe nor anywhere. It is an ongoing process. Every 
political environment needs continual support to engage and 
develop a discourse that is healthy to participatory decision-
making and to engagement. And Rwanda is no different from 
those.
    I think, particularly as we look at the political life of 
ordinary Rwandans, to view as sort of a dichotomous absolutely 
success or absolutely failure misses some of the nuance that 
characterizes every society where we live and work.
    Mr. Smith. If you don't mind yielding briefly, my thought 
was that we give undue value, excessive applause to 
extraordinarily minor steps, while the steps backwards are very 
profound.
    Mr. Jobbins. Thanks. No, I absolutely----
    Mr. Smith. It is almost a straw man to think that any of us 
think we are perfect--there is no perfection. We strive to it, 
but when things are going in the wrong direction--that was the 
essence of the question.
    Mr. Jobbins. So, thanks. I really appreciate that.
    What I wanted to sort of just underscore is, one of the 
things that is at least most vexing to us is, as we look at 
land, which is a life-and-death issue to ordinary Rwandans, the 
degree to which citizens understand necessarily the policies 
that impact them and have an opportunity to input into them is 
a continual process and quite uneven in terms of the way in 
which local governments, the way in which media, and others 
engage with citizens and lay that groundwork in bedrock for an 
informed policy debate.
    And so, beyond sort of the policy and the political debates 
around elections, one of the things that we look for, and 
particularly in the U.S. focus on democracy in governance and 
the partnership with Rwanda in the context of dwindling 
resources, as Congresswoman Bass highlighted, is ensuring that 
there is adequate attention on building civil society capacity, 
supporting media, to cultivate and to build a context of 
constructive political discourse, both around development but 
also around the decisions that government takes. That is 
something that is in line with the vision that has been laid 
out by the government, but one where we see a need for 
continued improvement.
    I think there is almost no place on earth, I might say, 
where the media environment has played a more negative role in 
the genocide. It was certainly profound thinking for our own 
organization how we engage in the role that media plays in 
societies. And almost no place where the social discourse has 
been as inflamed, and deliberately inflamed. And so, there is 
almost no place on earth where more attention needs to be paid 
to carving out and rebuilding a constructive media space, a 
constructive civil society, and free expression space; for 
citizens to really own and contribute to their own development 
in partnership with their government, but also in partnership 
with civil society and with other actors.
    Mr. Akwei. Thank you very much for the questions. I think I 
will just try to focus on the record of the previous 
administrations, which I know you, in particular, and 
Congresswoman Bass have fought very hard to try to correct.
    A very good colleague and Africa expert once told me that 
good friends don't let their friends do bad things to 
themselves. And I think this is what happened, that there was, 
as one of the previous panelists mentioned, there was an 
overcompensation after 1994. There were regional tensions that 
were genuine and credible, and the Rwandan Patriotic Fund had 
the capacity and the ability to basically be a force for 
stability. But that was also accompanied by what Representative 
Bass said were genuine, incredibly impressive numbers in terms 
of economic, social, and cultural rights progress. No one is 
disputing that.
    The challenge, I think, was that it became an ``either/
or.'' In other words, you are either in support of what was 
seen as an economic superstar, and any criticism of that was 
seen as a criticism of everything, which is extremely 
unfortunate because, what government and what country cannot 
have flaws as well as successes? Africa is no different.
    I think this has also become part, unfortunately, of the 
mindset of the government, that critiques or questions about 
certain policies tend to be equated with critiques about the 
government itself, whether legitimate or not. And that has 
descended into a reticence going back to the Clinton 
administration and the Bush administrations and the Obama 
administration, where there was a reluctance, or it was almost 
a struggle to get them to challenge and to actually take the 
Department of State reports, which consistently documented the 
shortcomings, and do something about it.
    And I think your point is right, we may not have the luxury 
to discuss the past, but we have the present and the future. 
The Trump administration has to adopt a different tact because, 
as our colleagues have said, the pressure is building. There 
are trends now where the political space is closing, and Rwanda 
is usually referred to as the epicenter. That, I think, is 
extremely alarming because, as one of my colleagues just said, 
wasn't that similar to where we were just before 1994, when 
there was no space and no ability to engage in dialog? Not 
simplifying things, but that is not where we want to go back 
to.
    Ms. Bass. Thank you, Mr. Chair.
    I wanted to ask in terms of the government and from the 
perspective of the U.S. what type of external pressure and 
which messengers tend to have the most positive impact. I would 
ask that of Mr. Jobbins.
    Mr. Jobbins. Thanks a lot.
    I think in terms of what we see as being constructive, the 
challenge is there is a risk in overestimating the role that 
external players and external pressure can play on shifting a 
political environment or in assuming that all that is needed is 
political will, rather than also forging a political way.
    And so, even though I think some of my colleagues have 
spoken about the concerns about public discourse, self-
censorship, like Adotei highlighted, but that is also about 
encouraging positive models, supporting examples of how 
citizens have engaged in creating role models that can craft 
and foster constructive participation from citizens to their 
own development and to the ultimate sort of you contribute to 
political life.
    Ms. Bass. So, let me ask you a little bit about that, 
because I believe your organization is engaged in some of that. 
And so, I wanted to know how you would assess the progress of 
reconciliation and peace building in Rwanda and how it might 
compare with other countries in the region.
    Mr. Jobbins. Sure, absolutely.
    I think, as many of you know, Rwanda has taken a very 
different tact; for example, its colleagues or the neighbor to 
the south in Burundi. There has been a very strong consensus 
forged in Rwanda to move beyond an identification of the past 
with Hutus and Tutsis, craft a national identity that we are 
all Rwandans. That is something that characterizes Rwandan 
society today. It is something that I believe, from 
interactions with Rwandans myself and others, it seems to be 
something that is broadly accepted.
    We have worked with NURC, the National Union and 
Reconciliation Council. And it is one that is obviously a 
different tact from how, for example, we deal with difference 
here in America. Here we talk explicitly about racial 
differences. We also talk about our own history in a way that 
is different, for example, from Brazil that has experienced 
similar differences. Every society deals and defines--whether 
it is class, religion, race, ethnicity, the divisions that make 
it up are phrased differently and understood differently as a 
legacy of history, as a legacy of culture, and as a deliberate 
choice about the vocabulary that people choose to use to 
describe themselves and to describe their neighbors.
    The push toward reconciliation, and to move beyond that 
framing, from all that we can see, appears to be in the surveys 
that we have done, is quite genuine and felt by ordinary 
Rwandans. The memory of the genocide, the desire to prevent 
that, again, animates political life, but that doesn't mean 
that there is not path dependency. That doesn't meant that 
where you are today is completely divorced from where your 
family was 25 years ago. And so, there is a degree of 
differences linked to the past that can only be really 
addressed with dialog.
    Ms. Bass. I know that they are going to call votes in a 
minute, but I appreciate that.
    Mr. Higiro, I think I heard you say that some of the 
opponents of Kagame have been deported from the U.S.? Did you 
say that?
    Major Higiro. No, it was not the opponents. The Hutus who 
have cases linked to genocide crimes, yes, which have been 
fabricated.
    Ms. Bass. Oh, I see.
    Major Higiro. Yes.
    Ms. Bass. They were deported from here?
    Major Higiro. Yes.
    Ms. Bass. Recently?
    Major Higiro. It is about a few months.
    Ms. Bass. Okay.
    Major Higiro. The last case I know at least is a few 
months.
    Ms. Bass. I don't think certainly anybody in this room 
feels that there is not a ton of problems that have to be dealt 
with in Rwanda. As I stated in the beginning, I think our 
chairman laid it all out.
    But I am concerned, though, that if you paint a country as 
completely negative in this political environment that we are 
in, where they are calling for, the administration is calling 
for a 30 percent cut in the State Department, that you can have 
a situation where people just walk away, too. I don't think 
that that would be positive on any account. People have to feel 
as though there is some hope. Otherwise, what is the point?
    So, those are my only questions. I do have to say, though, 
that I thought it was rather unfortunate that you seem to be 
pretty dismissive of the women parliamentarians in Rwanda, who 
I meet with. They come here, as I meet with parliamentarians 
and women leaders from around the world. I don't doubt the fact 
that it might be a rubberstamp, but I don't think that the 
women view themselves as irrelevant. I do think that women 
around the world do look at that number and think that it is 
pretty impressive.
    I yield back my time.
    Mr. Smith. Thank you.
    I will just ask one final thought, or question, I should 
say. Many have mentioned, including our Ambassador, the plight 
of Diane Rwigara. If I have this correct, she has pointed out 
that, she has criticized Kagame and his ruling Rwanda Patriot 
Front for acquiring a $500 million business empire, Crystal 
Ventures.
    I introduced a bill just the other day, this week, on 
Azerbaijan's ongoing and egregious human rights abuses, 
particularly political prisoners. When I introduced the similar 
bill in the last Congress, and it was roundly criticized by the 
Baku government, I had met in Azerbaijan a journalist, Khadija, 
who had exposed Aliyev's corruption. She was a reporter for 
Radio Free Europe. We had a hearing when she was incarcerated, 
and the head of Radio Free Europe came to this room and 
testified. She was eventually freed. I don't know how free she 
remains. But journalists who take that kind of risk--she had 
gotten a 7\1/2\-year prison sentence--but no mention was made 
by the White House to protest it, although Radio Free Europe 
did, thank God.
    I often find when you raise an issue that is country-
specific, they somehow think you have some ill will toward that 
country. And certainly Azerbaijan did that. Vietnam does it 
routinely when I introduce the Vietnam Human Rights Act, which 
has passed three times in the U.S. House. It never got past the 
Senate. When I wrote the Belarus Democracy Act of 2004, which 
held Lukashenko's government to account and imposed visa 
denials and very significant economic sanctions against his 
businesses, he denounced it. And I was just in Belarus a few 
months ago. And we are getting the same kind of pushback from 
Rwanda, that somehow we are singling out. And I do it with 
China. I have done it with many countries around the world 
where I have had country-specific human rights bills, some of 
which have become law, like Belarus, and now, the most recent 
one this week was on Azerbaijan. Last time, like I said, it was 
roundly and derisively criticized by the Baku government. 
Kagame has got the same view. This has nothing whatsoever to do 
with anything but compassion and empathy and concern for the 
people of Rwanda--they deserve better.
    So, my question is--we have talked about the human rights 
situation, the attacks on journalists, the attacks on 
individual people, the attacks on Mr. Higiro and the threats 
that he faced. My question is, do we know if Paul Kagame has 
amassed a fortune anywhere? We often find even Yasser Arafat--
who was supposedly fighting tooth and nail on behalf of the 
Palestinian people--upon his death, we learned that he amassed 
a fortune that would have been well utilized for the people 
under Palestine Liberation Organization (PLO) control. And, 
yes, he was a rich man, and we find that all over the world.
    So, do you have any information or could you, if necessary, 
get back to the committee, about Kagame's personal fortune? 
Does he have one? Yes?
    Mr. Himbara. When the Panama Papers came out, I think it 
was last year, something extraordinary happened. He is the only 
President in Africa that I know of that featured his 
assistants. And I say it was extraordinary because elsewhere 
there was uproar about the Panama Papers. But, because of the 
situation in Uganda, no single paper would even dare discuss 
the Panama Papers. It took nothing.
    Mr. Smith. For the record, what was contained within the 
Panama Papers?
    Mr. Himbara. Oh, what was concerned is that he had, they 
have offshore accounts that operate aircraft, private aircraft. 
Now we know that in Crystal Ventures, Crystal Ventures is 
Kagame, and RPF don't deny that Crystal Ventures exists. 
Crystal Ventures has more employees than even the central 
government. This is open.
    Crystal Ventures thrives on cronyism, basically, contracts 
from the government. Any opposition, any competition to Crystal 
Ventures, destroyed. So, what is going on there is that, even 
with clean records of corruption, see, what the report is about 
is petty corruption. But, when we talk about institutionalized 
corruption, then we are talking about something else.
    The Crystal Ventures is open. Crystal Ventures has 
aircraft; this is known, $60 million apiece. And what do these 
two aircrafts do? They shuttle the President. So, the President 
basically rents his aircraft from--so, there is Kagame, the 
President, renting aircraft from Kagame, the chairman of 
Crystal Ventures.
    What is extraordinary is that all this is in the open. Now 
the problem is no media in Rwanda would dare talk about this, 
but foreign media is doing this. I refer to The Economist. Two 
months ago, I think the title is--no, I forgot, but I will send 
you. I will refer it to the committee.
    The case of Crystal Ventures, the case of, you know, like 
transferal of public resources from the government to Crystal 
Ventures, even these loans he spoke about them, $4 million, 
that has built the convention center. Government went into debt 
for that money, but, suddenly, the owners of these hotels are 
who? Crystal Ventures.
    Major Higiro. Mr. Chairman, we have evidence of offshore 
accounts which we can always bring to your office.
    Mr. Smith. We will ask the State Department if they have 
any knowledge of any personal corruption for President Kagame 
and whether or not he has accumulated wealth that would not be 
commensurate with the job of a President.
    Anybody else like to add? But I do have to run. We have 
only a few minutes left.
    We deeply appreciate your testimony, your insights. It 
helps enlighten, especially with the new administration. So, 
thank you so very, very much.
    The hearing is adjourned.
    [Whereupon, at 5:03 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               

                                 <all>
</pre></body></html>
